HHS/OIG-Audit--"Allopathic Medicine Health Professions Student Loans Program at the Medical College of Wisconsin, Milwaukee, Wisconsin , A-05-98-00025"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Allopathic Medicine Health Professions Student Loans Program at the Medical
College of Wisconsin, Milwaukee, Wisconsin (A-05-98-00025)
September 1, 1998
Complete Text of Report is available in PDF format
(52 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Allopathic Medicine
Health Professions Student Loans (HPSL) Program at the Medical College of Wisconsin
(the College). The HPSL program was implemented through the Public Health Service
Act. The Health Resources and Services Administration (HRSA) has overall management
responsibilities for the program at the Federal level.
We determined that the College was appropriately using HPSL funds to provide
loans to eligible medical students and was generally in compliance with regulations
concerning the administration of loans. However, our audit revealed that the
College was carrying uncollectible loans in their accounting records.